OIG Investigative Reports Press Release Madison. WI., 04/15/2014 - Georgia Woman Sentenced for Student Loan Fraud Scheme
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
WESTERN DISTRICT of WISCONSIN
NEWS
Georgia Woman Sentenced for Student Loan Fraud Scheme
FOR IMMEDIATE RELEASE
April 15, 2014
MADISON, WIS. -- John W. Vaudreuil, United States Attorney for the Western District of Wisconsin, announced that Sharhondalynn Latriece Lathan, 30, of Lithonia, Ga., was sentenced today by U.S. District Judge Lynn S. Adelman to six months in federal prison, followed by three years of supervised release, and ordered to pay $417,722 in restitution for her role in defrauding the Federal Student Aid program.
On June 5, 2103, a federal grand jury sitting in Madison returned an 11-count indictment charging Lathan, her sister Valencia Jenkins, 33, also of Lithonia, Ga., and Valencia Jenkins’ cousin, Ricco Jenkins, 37, of Chicago, with mail fraud and identity theft arising from an eight-year scheme to defraud the Federal Student Aid program.
On December 17, 2013, Lathan pleaded guilty to one count of mail fraud.  Valencia and Ricco Jenkins also pleaded guilty to one count each of mail fraud on December 17, 2013 and March 6, 2014 respectively.  Valencia Jenkins is scheduled to be sentenced on July 8, 2014, and Ricco Jenkins is scheduled to be sentenced on May 20, 2014.
From January 2003 through March 2011, the defendants used in excess of 20 persons’ personal identifiers to fraudulently apply for federal student financial aid and thereby defrauded the United States of over $400,000.  The three defendants admitted receiving financial aid for which they were not eligible and also admitted using the funds for purposes unrelated to post-secondary education. None of the three defendants has a high school diploma or general education development (GED) certificate.
Valencia Jenkins and Sharhondalynn Lathan assisted family members, friends, and others in obtaining financial aid for which they were not eligible.  Ricco Jenkins stated he also referred people to Valencia Jenkins to apply for financial aid.
The Department of Education’s mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access. Fraud rings mainly target lower cost institutions because federal student aid awards easily satisfy tuition there, resulting in a higher award balance paid to the student, intended for educational expenses such as books and room and board. The award balance is what the fraud ring participants seek.  But they have no intention of pursuing a degree, and often are not even eligible for federal student aid because they do not have a legitimate high school diploma or GED.
The charges against Lathan were the result of an investigation conducted by Office of Inspector General, Department of Education, and the U.S. Postal Inspection Service.  The prosecution of the case has been handled by Assistant U.S. Attorney Peter M. Jarosz.
Top
Printable view
Last Modified: 04/22/2014
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov